LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 6, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 1361:

Regina B. Heisler, individually and as the executrix of the
Succession of Frederick P. Heisler v. Girod LoanCo, LLC

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on May 6, 2021,
I caused service to be made pursuant to Rule 29 and the Temporary Order of April 15,
2020, on the following counsel for the Respondent:
RESPONDENT:
J. Eric Lockridge
KEAN MILLER LLP
400 Convention Street, Suite 700
Baton Rouge, LA 70802
225-387-0999
eric.lockridge@keanmiller.com
This service was effected by depositing one copy of a Petition for Rehearing in
an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

i

RECEIVED
MAY 1 0 2021
LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My emission exp. October 12,2022

©

Sworn and subscribed before me this 6th day of May 2021.

